               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-00026-08




       Community Based Outpatient 

             Clinic Reviews 

                    at 

         Richard L. Roudebush 

           VA Medical Center 

            Indianapolis, IN 





November 7, 2013

                         Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                        CBOC Reviews at Richard L. Roudebush VAMC



                                              Glossary
                       ADA      Americans with Disabilities Act
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                       CBOC Reviews at Richard L. Roudebush VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 11 Director Comments .............................................................................                     12

  B. Richard L. Roudebush VAMC Director Comments ............................................                                    13

  C. OIG Contact and Staff Acknowledgments .........................................................                             16

  D. Report Distribution .............................................................................................           17





VA OIG Office of Healthcare Inspections
                                                    CBOC Reviews at Richard L. Roudebush VAMC



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOC during the week of August 26, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC (see Table 1).

    VISN        Facility                   CBOC Name             Location
                Richard L.
      11                                   Terre Haute           Terre Haute, IN
                Roudebush VAMC
                                     Table 1. Sites Inspected

Review Results: We made recommendations in three review areas.

Recommendations: The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

   Ensure that patients with normal cervical cancer screening results are notified within
    the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians screen patients for tetanus vaccinations.

	 Ensure that clinicians administer pneumococcal vaccines when indicated.

	 Ensure that clinicians document all required pneumococcal vaccine administration
   elements and that compliance is monitored.

	 Ensure that handicap parking spaces meet ADA requirements at the Terre Haute
   CBOC.



VA OIG Office of Healthcare Inspections                                                    i
                                               CBOC Reviews at Richard L. Roudebush VAMC


	 Ensure that processes be strengthened to ensure that EOC Committee minutes
   reflect discussion regarding deficiencies identified during EOC rounds and that all
   identified issues are tracked, trended, and corrected at the Terre Haute CBOC.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A
and B, pages 12–15, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                  JOHN D. DAIGH, JR., M.D.
                                                 Assistant Inspector General for
                                                      Healthcare Inspections




VA OIG Office of Healthcare Inspections                                               ii
                                                            CBOC Reviews at Richard L. Roudebush VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                CBOC Reviews at Richard L. Roudebush VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. One CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                2
                                                                                                          CBOC Reviews at Richard L. Roudebush VAMC



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                             Uniques FY              Visits FY
VISN             Parent Facility                 CBOC Name6               Locality7                                                     CBOC Size10
                                                                                               20128                  2012
                                                                                                                            9

    11   Richard L. Roudebush VAMC                Bloomington         Urban                     4,781                 16,037               Mid-Size
                                               (Bloomington, IN)
                                                  Terre Haute         Rural                      4,722                18,531               Mid-Size
                                               (Terre Haute, IN)
                                                              Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  The Martinsville (Martinsville, IN) CBOC became operational on October 15, 2011, and is therefore not listed in the CBOC Profiles. 

7
  http://vaww.pssg.med.va.gov/

8
  http://vssc.med.va.gov

9
  http://vssc.med.va.gov

10
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                            CBOC Reviews at Richard L. Roudebush VAMC



                    WH and Vaccination EHR Reviews 

                     Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.11 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.12
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.13 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

            NC                                        Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
             X                 Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                Table 3. WH

There were 23 patients who received a cervical cancer screening at the
Richard L. Roudebush VAMC’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed the EHRs of 17 patients who had normal cervical
screening results and determined that 4 patients were not notified within the required
14 days from the date the pathology report became available. These notifications must
be documented in the EHR.14


11
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

12
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

13
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

14
   VHA Handbook 1330.01. 



VA OIG Office of Healthcare Inspections                                                                      4
                                                           CBOC Reviews at Richard L. Roudebush VAMC


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified within the required timeframe and that notification is
documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.15
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, a one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

       NC                                       Areas Reviewed
        X           Staff screened patients for the tetanus vaccination.
                    Staff administered the tetanus vaccine when indicated.
                    Staff screened patients for the pneumococcal vaccination.
        X           Staff administered the pneumococcal vaccine when indicated.
        X           Staff properly documented vaccine administration.
                                          Table 4. Vaccinations

Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.16 We reviewed 73 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 63 of the EHRs.

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.17 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of six patients with pre-existing

15
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 

16
   VHA Handbook 1120.05. 

17
   Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/. 



VA OIG Office of Healthcare Inspections                                                                      5
                                                              CBOC Reviews at Richard L. Roudebush VAMC


conditions who received their first vaccine prior to the age of 65 and did not find
documentation in any of the EHRs indicating that their second vaccinations had been
administered.

Documentation of Pneumococcal Vaccination.              Federal Law requires that
documentation for administered vaccines include specific elements, such as the vaccine
manufacturer and lot number of the vaccine used.18 We reviewed the EHRs of
20 patients who received a pneumococcal vaccine administration at the parent facility or
its associated CBOCs and did not find documentation of all the required information
related to pneumococcal vaccine administration in any of the EHRs.

Recommendations

2. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

4. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.




18
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                              6
                                                      CBOC Reviews at Richard L. Roudebush VAMC



                               Onsite Reviews 

                       Results and Recommendations 

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOC (see Table 5).

                                                                     Terre Haute
  VISN                                                                    11

  Parent Facility                                            Richard L. Roudebush VAMC

  Types of Providers                                               Nurse Practitioner
                                                                Primary Care Physician
  Number of MH Uniques, FY 2012                                          712

  Number of MH Visits, FY 2012                                          9,703

  MH Services Onsite                                                     Yes

  Specialty Care Services Onsite                                         WH

  Ancillary Services Provided Onsite                              Electrocardiogram
                                                                      Laboratory
                                                                       Radiology
  Tele-Health Services                                               Dermatology
                                                                          MH
                                                                    Retinal Imaging
                                                           Care Coordination Home Telehealth
                                       Table 5. Characteristics




VA OIG Office of Healthcare Inspections                                                        7
                                                    CBOC Reviews at Richard L. Roudebush VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.19 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.



19
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                   CBOC Reviews at Richard L. Roudebush VAMC


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

The CBOC was compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
review elements marked as NC needed improvement. Details regarding the findings
follow the table.

        NC                                     Areas Reviewed
                    The CBOC was ADA-compliant, including: parking, ramps, door
         X          widths, door hardware, restrooms, and counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.



VA OIG Office of Healthcare Inspections                                                   9
                                                         CBOC Reviews at Richard L. Roudebush VAMC


            NC                               Areas Reviewed (continued)
                         Sharps containers were less than 3/4 full.
                         Safety needle devices were available for staff use (e.g., lancets,
                         injection needles, phlebotomy needles).
             X           The CBOC was included in facility-wide EOC activities.
                                                Table 7. EOC

Handicap Parking. The ADA requires that handicap accessible parking spaces must be
located on the shortest accessible route of travel to an accessible facility entrance.20
We found that three handicap parking spaces were located in the middle of the parking
lot and not close to the CBOC entrance.

EOC Rounds. Six months of EOC Committee meeting minutes were reviewed, and the
minutes did not reflect discussion regarding deficiencies identified during EOC rounds.
Additionally, the deficiencies identified at the Terre Haute CBOC have not been tracked
and trended to ensure that the identified issues were corrected.

 Recommendations

5. We recommended that handicap parking spaces meet ADA requirements at the
Terre Haute CBOC.

6. We recommended that processes be strengthened to ensure that EOC Committee
minutes reflect discussion regarding deficiencies identified during EOC rounds and that
all identified issues are tracked, trended, and corrected at the Terre Haute CBOC.

Emergency Management

VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.21 Table 8 shows the areas
reviewed for this topic.

            NC                                       Areas Reviewed
                          There was a local medical emergency management plan for this
                          CBOC.
                          The staff articulated the procedural steps of the medical emergency
                          plan.
                          The CBOC had an automated external defibrillator onsite for cardiac
                          emergencies.
                          There was a local MH emergency management plan for this CBOC.
                          The staff articulated the procedural steps of the MH emergency
                          plan.
                                       Table 8. Emergency Management



20
     http://www.ada.gov/restripe.htm
21
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                        10
                                          CBOC Reviews at Richard L. Roudebush VAMC


The CBOC was compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                         11
                                                   CBOC Reviews at Richard L. Roudebush VAMC
                                                                                   Appendix A
                           VISN 11 Director Comments


               Department of
               Veterans Affairs                                Memorandum


       Date:           October 10, 2013

       From:           Director, VISN 11 (10N11)

       Subject:        CBOC Reviews at Richard L. Roudebush VAMC

       To:             Director, 54KC Healthcare Inspections Division (54KC)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)



       I have reviewed the OIG Community Based Outpatient Clinic Reviews at
       the Richard L. Roudebush VAMC and concur with the responses as
       provided by the Medical Center Director.

       If you have any questions or would like to discuss this response, please
       contact Dr. MaryPat Pousak, VISN 11 Clinical Program Manager, at
       734-222-4293.




        Paul Bockelman, MBA, FACHE




VA OIG Office of Healthcare Inspections                                                   12
                                                   CBOC Reviews at Richard L. Roudebush VAMC
                                                                                   Appendix B
          Richard L. Roudebush VAMC Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:           October 8, 2013

       From:           Director, Richard L. Roudebush VAMC (583/00)

       Subject:        CBOC Reviews at Richard L. Roudebush VAMC

       To:             Director, VISN 11 (10N11)


       This memorandum serves as concurrence with the recommendations
       found in the draft report of the Office of Inspector General Community
       Based Outpatient Clinic Reviews at Richard L. Roudebush VAMC.

       I appreciate the opportunity for this review as a continuous process to
       improve the care to our Veterans.



       Thank You,




       Richard L. Roudebush VA Medical Center Director




VA OIG Office of Healthcare Inspections                                                   13
                                               CBOC Reviews at Richard L. Roudebush VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified within the required timeframe and that notification is
documented in the EHR.

Concur

Target date for completion: October 31, 2013

Pathology and Laboratory Service added normal cervical cancer test results to their
electronic notification process to the ordering provider and to the Women’s Health
Coordinator – implementation date: October 31, 2013. CBOC staff was provided
education related to test result notification per facility Medical Center Memorandum and
required documentation in the patient’s medical record - completion date:
September 27, 2013. The Women’s Veteran Program Manager will perform random
chart audits to determine compliance with reporting normal test result within 14 days.

2. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur

Target date for completion: October 31, 2013

CBOC patients presenting for a scheduled appointment will be screened for the Tdap
vaccine utilizing a clinical reminder. The CBOC Coordinator will monitor compliance
and report to the appropriate oversight board.

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

Concur

Target date for completion: October 31, 2013

The pneumovax clinical reminder is being modified to meet current requirements for
pneumococcal vaccination - implementation date: October 31, 2013. The CBOC staff
will be educated on changes to clinical reminder and current recommendation for
pneumococcal vaccination by October 25, 2013. The CBOC Coordinator will perform
random chart audits to ensure compliance with administration of the pneumococcal
vaccine when indicated.


VA OIG Office of Healthcare Inspections                                              14
                                               CBOC Reviews at Richard L. Roudebush VAMC


4. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: October 30, 2013

The vaccination documentation template for pneumococcal was updated to include all
required elements and recommendation for revaccination – to be completed by
October 20, 2013. CBOC staff received education on required documentation and
revaccination standards – completed September 30, 2013. The CBOC Coordinator will
perform random chart audits to monitor compliance for required vaccine documentation.

5. We recommended that handicap parking spaces meet ADA requirements at the
Terre Haute CBOC.

Concur

Target date for completion: September 12, 2013

The CBOC landlord identified handicap parking spaces in front of the ramp leading to
the clinic entrance – completed September 12, 2013.

6. We recommended that processes be strengthened to ensure that EOC Committee
minutes reflect discussion regarding deficiencies identified during EOC rounds and that
all identified issues are tracked, trended, and corrected at the Terre Haute CBOC.

Concur

Target date for completion: October 31, 2013

Deficiencies identified on CBOC EOC rounds will be discussed monthly in the EOC
Board meeting to include the monitoring, trending, and resolution of identified
deficiencies – implementation date: October 31, 2013.




VA OIG Office of Healthcare Inspections                                              15
                                                  CBOC Reviews at Richard L. Roudebush VAMC
                                                                                  Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Cindy Niemack-Brown, CMSW, LMHP, Team Leader
Contributors            Laura Snow, LMSW, MHCL
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        James Seitz, RN, MBA
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jennifer Whitehead, Program Support Assistant
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  16
                                               CBOC Reviews at Richard L. Roudebush VAMC
                                                                               Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 11 (10N11)
Director, Richard L. Roudebush VAMC (583/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Daniel Coats, Joe Donnelly
U.S. House of Representatives: Susan W. Brooks, Larry Bucshon, Andrè Carson,
 Luke Messer, Todd Rokita, Marlin Stutzman, Peter Visclosky, Jackie Walorski,
 Todd Young


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                               17
